filed
SEP 17 2021
IN THE
SUPREME COURT OF THE UNITED STATES

Christian Comacho

y

— PETITIONER

(Your Name)
vs.
State of Nebraska

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Supreme Court of Nebraska
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Christian Comacho

(Your Name)
4201 S. 14th St.

(Address)
Lincoln, NE 68542
(City, State, Zip Code)
Incarcerated
(Phone Number)

#

QUESTION(S) PRESENTED
1. Did the district court err when it allowed testimony
via two-way interactive video on foundational or "factual
scenario" grounds over confrontation objections, due
to witness' claim of COVID-19 concerns.
2. Whether an adult non-witness interpreter's testimony
via two-way interactive video of defendant's alleged
factual statements, adequately preserves the trier of
fact's observation of witness' demeanor, specifically
during cross-examination.

LIST OF PARTIES

ki All parties appear in the caption of the case on the cover page.
[ ] AH parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

Sta-te of Nebraska v. Christian Estrada-Comacho
309 N<!ik 494, Nebraska Supreme Court Case No. S-20-619
State of Nebraska v. Christian Estrada-Comacho
Nebraska Court °f Appeals Case No. A-20-617
State of Nebraska /v. Christian Estrada-Comacho
Nebraska District Court Case No. CR-19-87

G)

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

a

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

5
7

REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

r

APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

e>£ (zyfai'JZ'

rO^ C-

TABLE OF AUTHORITIES CITED

CASES
Maryland v. Craig, 497 U.S. 836 (1990)
People v. Jemison, 952 N.W.2d 394 (2020)
State v. Mercer, 489 P.3d 967 (2021)
US v. Carter, 907 F.3d 1199 (2018)

STATUTES AND RULES
Nebraska Constitution, Art. 1, §11
U.S. Constitution, Amend. 6

OTHER

PAGE NUMBER
C
C
c

c

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix____ to the petition and is
reported at 309 Neb. 494
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
(date)
to and including __
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

For cases from state courts:
The date on which the highest state court decided my case was 6/18/21
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
to and including____
(date) on
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

a

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Nebraska Constitution, Article 1, §11
U.S. Constitution, Amendment 6

3

STATEMENT OF THE CASE
1. Information was filed on June 10, 202, charging Comacho with
conspiracy to distribute a controll^dcsubstance and robbery,
arising out;/of alleged events on January 22, 2019.
2. At trial, testimony was given of complaining witness who
had inquired of an agentvregarding the purchase of $5,000
of Methamphetamine. This agent contacted an intermediary/
who allegedly contacted Comacho. According to testimony by
the intermediary, a meeting was artranged for t^ie transaction.
Complaining witness and the intermediary had never met prior
to this trahSadtion.
3. Complaining withess.c'was directed to Comacho's place of
employment on the night in question, where Comacho entered
the vehicle. They then travelled to an apartment parking lot.
After anoamount of time, another vehicle approached. Complaining
witness willingly agreed to provide Comacho with $5,000. At
no time was violence or force used, and Comacho exited the
vehicle with the funds. AftervComacho^exited the vehicle,
approximately"three to four shots were fired. Complaining
witness;;was shot, and at this time, having not identified
where the shots came from, left theeparkihg.^lot, making no
attempt to collect either the money orrthe alleged Methamphetamine.
4. The State also called andetective unassigned to the case,
Timothy Champion, to testify regarding the content of Spanish
language telephone<:calls alleged to have been made by Comachoj:
from the local county jail. On July 23, 2020, when asked to
testify, Champion alleged to have tested positive for COVID19, and the State requested that he testify via two-way interactive
video. At no poiht"wqs a positive C0VID-19 test provided by
Champion nor the State to the district court, hence, there
was no collaboration of Champion's claims as to his unavailability.
5. In reaching its decision, the district court relied upon,
and took judicial notice ofy, language promulgated by the Nebraska
Supreme Court. The Nebraska Supreme Court noted "... that
the courts are to remain open duriong this pandemic [because]
courts are a necessary function of government."
6. In an attempt"to preserve Comacho's right to confrontation,
the Nebraska Supreme Court used precedent to apply a two-prong
test regarding whether to allow interactive video testimony,
and after applying said test, found that it was "necessary
for public policy to protect the public" to allow Champion
to testify via two-way interactive video.

4

7. Applying its test, the Nebraska Supreme Court found
that because Champion would be "giving a factual scenario,"
the reliability of hia testimony was assured, despite
the jury's inability to reasonably judge Champion's
demeanor and compsure on a two-dimensional screen as
opposed to his three-dismensional presence.
8. Comacho objected to Champion's testimony on the grounds
that Champion lacked the foundational experience to act as
a translator; as he lacked any type of training, education,
or certification that would be required of an in-court
translator, per Nebraska law.
9. A jury found Comacho guilty of conspiring to distribute
a controlled substance, to whit Methamphetamine, and
aiding and abetting a robbery. The district court sentenced
Comacho to 14 to 18 years for each charge, to run concurrent
to a sentence imposed in a separate case. Comacho appealed
his convictions and sentences to the Nebraska Court of Appeals.
The Nebraska Supreme Court issued a Mandate to the
Court of Appeals to take up the case directly due to
the questions presented being "some issue[s] of importance."
10. On Mandate to the Nebraska Supreme Court, Comacho
asserted that the district court erred by: 1) allowing
Champion to testify via two-way video, and 2) overruling
his objection to Champion's testimony based on lack of
foundation for Champion to translate statements from
Spanish to English.
11. The Nebraska Supreme Court found that the trial
court did not err when it allowed Champion to testify
via two-way interactive video over Comacho’s confrontation
and foundation objections.

5

REASONS FOR GRANTING THE PETITION
The onset of the COVID-19 pandemic has left the question
of how to balance public health needs with the preservation
of individual rights. This case, on appeal, was taken
up by the Nebraska Supreme Court via Mandate, to decide
what was considered to be an important question of law.
The Nebraska Supreme Court held that foundational testimony
via two-way interactive video was permissible in maintaing
a defendant's Sixth Amendment Confrontation rights.
However, other states have held differently.
In Michigan, a lab analyst laying foundational testimony
via two-way interactive video during the course of a '
sexual assault trial was held to be in violation of
the defendant's Sixth Amendment Confrontation right.
See,People v. Jemison, 952 N.W.2d 394 (2020).
In Montana, an officer who was laying foundational
testimony via two-way interactive video regarding the
extraction of cellphone data was held to have violated
the defendant's Sixth Amendment Confrontation right.
See State v. Mercer, 479 P.3d 967 (2021).
Both of these cases, supra, occured during the COVID-19
health crisis, and are analogous to the case at hand;
however, these cases were decided in the opposite manner
to Comacho.
California has held the right to Confrontation under
the Sixth Amendment to be so rigid that two years prior
to the COVID-19 health crisis, when interpreting the
holding under Maryland v. Craid, held that an underage
child victim, , who was seven months pregnant and experiencing
pregnancy complications, should not have been allowed
to testify via two-way interactive video, as allowing
her to do so violated the defendant's Sixth Amendment
Confrontation right.
There is currently a schism in the nation regarding,.the
balancing of individual rights and public health concerns
to such a degree that it requires the guiding hand of
this Court to unify the conflicting decisions across
various jurisdictions in these United States of America.

6

m

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

fs'UrtJa Ca^mokl)
Date:

q-ib-TA

7

